                                                                                Office Of Inspector General
                                                                                Office Of Audit Services
        DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                Region II
                                                                                Jacob Javits Federal Building
                                             September 30, 2009                 26 Federal Plaza - Room 3900
                                                                                New York, NY 10278



Report Number: A-02-08-01029

Mr. Walter Otero
Assistant Vice President
New York City Health and Hospitals Corporation
Office of Internal Audits
160 Water Street, 7t11 Floor
New York, New York 10038

Dear Mr. Otero:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Medicare Credit Balances at Coney Island
Hospital." We will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.c. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov..
http://oig.hhs.gov

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-08-01029 in all correspondence.

                                             Sincerely,

                                             ~p;c~
                                                   P~
                                            C1mes Edert
                                            Regional Inspector General
                                              for Audit Services

Enclosure

HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12t11 Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
                               Services

             OFFICE OF

                    OF�
        INSPECTOR GENERAL

                  GENERAL�




 REVIEW OF MEDICARE CREDIT

 BALANCES AT CONEY ISLAND

         HOSPITAL

         HOSPITAL






                    Daniel R. Levinson
                              Levinson

                     Inspector General
                               General


                      September 2009
                                2009

                       A·02·0S·01029
                       A·02·0S·01029

                    Office of
                           ofInspector
                              Inspector General
                                      http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG). as mandated by Public Law 95-452. as
amended. is to protect the integrity ofthe Department of Health and Human Services (HHS)
programs. as well as the health and welfare of beneficiaries served by those programs. Tbis
statutory mission is carried out through a nationwide network of audits. investigations. and
inspections conducted by the following operating components:

Office of
       ofAudit
          Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS. either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste. abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of
       ofEvaluation
          Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of
       ofInvestigations
          Investigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
conceming the anti-kickback statute and other OIG enforcement authorities.
                            Notices

                            Notices




       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY
                                             SUMMARY�

BACKGROUND
BACKGROUND�

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for persons aged 65 and over and those who are disabled or have permanent
kidney disease. Section 1866(a)(l)(c) of the Act requires participating providers to furnish
information to the Centers for Medicare & Medicaid Services (CMS), which administers the
program, about payments made to them and to refund any payments incorrectly paid including
credit balances.

A credit balance is an improper or excess payment made to a provider as a result of patient
billing or claims processing errors. Credit balances generally occur when a provider is paid
twice for the same service either by Medicare or by Medicare and another insurer; paid for
services planned but not performed for covered services; overpaid because of errors made in
calculating beneficiary deductible and/or coinsurance amounts; or a hospital that bills and is paid
for outpatient services included in a beneficiary's inpatient claim.

Coney Island Hospital (the hospital) is a 371-bed community medical center in Brooklyn, New
York. The hospital is administered by the New York City Health and Hospitals Corporation.
The hospital recorded 55 Medicare inpatient credit balances (totaling $404,584) as of
December 31,2008, and 1,910 Medicare outpatient credit balances (totaling $665,696) as of
April 30, 2009, in its accounting records.

OBJECTIVE

Our objective was to determine whether Medicare inpatient and outpatient credit balances
recorded in the hospital's accounting records as of December 31,2008, and April 30, 2009,
respectively, represented overpayments that the hospital should have refunded to the Medicare
program.

SUMMARY OF RESULTS

The hospital refunded Medicare credit balances in accordance with Federal requirements. Our
review disclosed that of the 130 inpatient and outpatient credit balances, totaling $590,107,
recorded in the hospital's accounting records as of December 31,2008 and April 30, 2009,
respectively, three were Medicare overpayments due to the Federal Government. All three
Medicare overpayments, totaling $60,366, were properly refunded to Medicare in accordance
with Federal requirements. We are not submitting recommendations to the hospital.
                      TABLE OF CONTENTS
                               CONTENTS�



INTRODUCTION                                1

                                            1�

    BACKGROUND                              1�1


    OBJECTIVE, SCOPE AND METHODOLOGY        1�
                                            1

         Objective                          1�1

         Scope                              1�1

         Methodology                        2�2


RESULTS OF REVIEW                          .3�3





                              11
                                       INTRODUCTION
                                       INTRODUCTION�

BACKGROUND
BACKGROUND�

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for persons aged 65 and over and those who are disabled or have permanent
kidney disease. Section 1866(a)(l)(c) of the Act requires participating providers to furnish
information to the Centers for Medicare & Medicaid Services (CMS), which administers the
program, about payments made to them and to refund any payments incorrectly paid including
credit balances.

A credit balance is an improper or excess payment made to a provider as a result of patient
billing or claims processing errors. Credit balances generally occur when a provider is paid
twice for the same service either by Medicare or by Medicare and another insurer; paid for
services planned but not performed for covered services; overpaid because of errors made in
calculating beneficiary deductible and/or coinsurance amounts; or a hospital that bills and is paid
for outpatient services included in a beneficiary's inpatient claim.

CMS requires Medicare providers to submit a completed Medicare Credit Balance Report,
Form CMS-838 within 30 days after the close of the calendar quarter, and include all Medicare
credit balances shown in the providers' accounting records as of the last day of the reporting
quarter. Providers must pay all amounts owed Medicare at the time the credit balance report is
submitted. As an exception, pursuant to 42 CFR 489.20(h), providers are required to refund to
Medicare within 60 days any payment for the same services from Medicare and another payer
that is primary to Medicare.

Coney Island Hospital (the hospital) is a 371-bed community medical center in Brooklyn, New
York. The hospital is administered by the New York City Health and Hospitals Corporation.
The hospital recorded 55 Medicare inpatient credit balances (totaling $404,584) as of
December 31,2008, and 1,910 Medicare outpatient credit balances (totaling $665,696) as of
April 30, 2009, in its accounting records.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare inpatient and outpatient credit balances
recorded in the hospital's accounting records as of December 31,2008, and April 30, 2009,
respectively, represented overpayments that the hospital should have refunded to the Medicare
program.

Scope

We reviewed all Medicare inpatient credit balances recorded in the hospital's accounting records
as of December 31,2008. We limited our review of outpatient credit balances to those over
$1,500 and a random sample selection of those over $100 which were recorded in the hospital's



                                                 1
                                                 1�
                                                  1
accounting records as of April 30, 2009. We did not review the hospital's overall internal
control structure. Rather, we limited our review of internal controls to obtaining an
understanding of the hospital's accounting for and reimbursing Medicare for overpayments.

We performed our fieldwork from March through August 2009 at the hospital's administrative
offices in Brooklyn, New York.

Methodology

To accomplish our objectives, we:

    ••�    reviewed applicable laws, regulations, and guidelines;

    •�•
 held discussions with hospital officials to obtain an understanding of the hospital's
         system for accounting for Medicare credit balances;
                                                      balances;


    •�
    •
     obtained information from the Medicare administrative contractor regarding credit
           balances reported by the hospital;
                                    hospital;


    •

    •� reconciled inpatient Medicare accounts receivable totals to the hospital's inpatient aged
       trial balance as of December 31,2008;2
                                    31,2008;2


    •

    •�     identified 1,965 Medicare credit balances, totaling $1,070,280, recorded by the hospital
           in its accounting records;
                             records;


    •�•
   eliminated 651 outpatient credit balances less than $100, totaling $26,962, from the
           population of 1,965 credit balances;
                                      balances;


    •�•    identified a sampling frame of 1,314 credit balances, totaling $1,043,318;

    •�
    •
     selected a stratified random sample of 130 credit balances, totaling $590, I 07 from the
           sampling frame of 1,314 credit balances;3
                                           balances;3


    ••�    reviewed supporting documentation for each of the 130 credit balances, including patient
           admission forms, Medicare remittance advices, patient accounts receivable details, and
           other hospital records related to the credit balances to determine whether the amounts


1Based on the prospective nature of the hospital's accounting system, the hospital was unable to generate an
outpatient credit balance report as of December 31, 2008. Consequently, the most current data available at the time
of our audit was as of April 30, 2009.

2 Due to the prospective nature of the hospital's accounting system, outpatient debit balances were not available to
reconcile to the net Medicare accounts receivable totals in the hospital's outpatient trial balance as of April 30, 2009.

3 The 130 credit balances comprised (I) a1155 inpatient balances, totaling $404,584; (2) a1145 outpatient balances of
$1,500 or more, totaling $173,331; and (3) 30 randomly selected outpatient balances between $100 and $1,500,
totaling $12,192.


                                                            2�2
         recorded on the hospital's books represented actual overpayments due to the Federal
         Government; and

   ••�   determined whether each of the credit balance amounts that represented Medicare
         overpayments due the Federal Government were refunded in accordance with Federal
         requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                                    RESULTS OF REVIEW

The hospital refunded Medicare credit balances in accordance with Federal requirements. Our
review disclosed that of the 130 inpatient and outpatient credit balances, totaling $590,107,
recorded in the hospital's accounting records as of December 31,2008, and April 30, 2009,
respectively, three were Medicare overpayments due to the Federal Government. All three
Medicare overpayments, totaling $60,366, were properly refunded to Medicare in accordance
with Federal requirements. We are not submitting recommendations to the hospital.




                                                 3
                                                 3�
